SUPREME COURT OF THE UNITED STATES
NO. 20-997
ARLANE JAMES, IN RE: WILLIE GIBBONS;
JRG, A MINOR, BY HIS MOTHER AND LEGAL
GUARDIAN, IKEYA CRAWFORD; AND DKL
AND LMG, MINORS, BY THEIR MOTHER AND
LEGAL GUARDIAN, ANGEL STEPHENS
v.

Petitioners,

NOAH BARTELT,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief
in Opposition contains 8,110 words, excluding the parts of the document
that are exempted by Supreme Court 33.1(d).
I declare under penalty of perjury that the forgoing is true and
correct.

JEREMY M. FEIGENBAUM

Date: May 12, 2021

